. . .




                            MEDICARE PART B AMBULANCE SERVICES





             "" StIlVICl
             t-'"      "




        '0




              q"clm


        OFFICE OF INSPECTOR GENERAL
             OFFICE OF ANAL YSIS AND INSPECTIONS


                                                                  MARCH 1987

                          MEDICARE PART B


                         AMULANCE SBRVICES




RICHAD   P.   KUSSEROW                       MACH 1987
INSPECTOR GBBERA

OAI-03-86-0D012
                         TABLE OF CONTENTS



       Executi ve Sumary


II.    Introduction

III.   Findings

IV.    Recommendations


v..    Appendices
                                     .. .



                        EXEUTIVE SUMMY
Medicare Part B covers ambulance services to a hospi tal,
nursing home or the patient' s home    only if other means


                       J.
of transportation would endanger the beneficiary s health"

(42 CFR 405. 232 (i) (2)  Payment is based on customary and
prevailing rates in an area. A base rate is paid for each
trip.  Additional charges may be allowed for mileage,
oxygen, waiting time, and night or emergency  trips.
During 1986, the Office of Inspector General, Office of
Analysis and Inspections, conducted a national inspection of

Medicare Part B ambulance services. The inspection was con­

ducted in response to concerns that Medicare may be paying

unreasonably high amounts for ambulance services.
The purposes of the inspection were to determine: 1) why
Medicare costs have grown so  rapidly; 2) how to control
costs;  3) whether public entities can be expected to shift
addi tional costs to Medicare in the future; and 4) the
impact of Advanced Life Support (ALS) coverage on Medicare

costs.
The inspection found that Part B ambulance costs have risen

at an average rate of over 20 percent annually since 1974.
Data on the extent to which the increase has resulted from

increased utilization is not available. However, we

identified several other major reasons for this rapid cost
escalation:   1) inability of the reasonable charge
methodology to control increases in supplier charges;
2) higher State and local emergency medical services (EMS)
standards resulting in part from Federal legislation;
3) a shift of public provider costs for emergency ambulance

services to Medicare; and 4) lack of an economic index cap
on reimbursement increases for ambulance services prior to
October 1, 1985.
We found that most of the shift of public provider expenses
for ALS services to Medicare has already occurred.
addi tion , local regulation of EMS has helped control Medicare
costs in some areas. Where local governments set ambulance
rates, Medicare prevailings remain  low.   Local subsidies for
emergency (911) services reduce Medicare ALS costs in some
areas. - Overall, the extension of Medicare coverage to ALS
in 1982 has not had a signif icant effect on costs.
The inspection found dramatic variation among carriers in
prevailing charge rates and coverage for ambulance services.
For example, 1984 basic life support (BLS) prevailings
ranged from $60 to $115, while ALS prevailings ranged from
$90 to $275. Some carriers pay extra for every mile the
patient is transported, while others do not allow mileage
within defined local limits. Mileage allowances range from
$2 to $6. 50 per mile. While most carriers pay extra for

emergency and night trips, a few do not. Oxygen rates range

from $7 to $25.
The inspection found that Medicare is paying too much        for
ambulance services. Medicare pays more than the Veterans

Administration (VA), health maintenance organizations
(HMOs), and hospitals for BLS services. These purchasers
use competitive bidding to obtain low rates for BLS ambu­
lance transportation. VA hospitals contract with amulance
suppliers for BLS services at rates approximately 25 percent
lower than comparable Medicare rates.


One Medicare carrier has applied its inherent reasonableness
authori ty, achieving annual savings of 15.       8 percent. If all
carriers were to reduce rates by 15. 8 percent, Medicare
could save $ 69 million annually.
We identified 18 major American cities which provide

emergency ambulance transportation through competitively
awarded contracts with private companies. Some of these
arrangements have been in effect for five years or more,
wi th no reduction in the quality of care provided to

pa tients   .
Our draft report contained two recommendations: to require

carriers to use their inherent reasonableness authority to

limit ambulance charges, and to seek legislative authority

to allow carriers to use competitive bidding to set

ambulance reimbursement rates (the VA approach).


Comments on the draft were received from the Health Care
Financing Administration (HCFA) and the American Ambulance
Association (AA). Both respondents generally supported the
concept of inherent reasonableness but were concerned about
the specific method and factors to be used in determining
the reasonableness of ambulance        charges.
                                          The AA offered
assist HCFA in arriving at the specific factors to apply.
Nei ther HCFA nor the   AA agreed with our recommendationon
competi ti ve   bidding. Both
                            respondents indicated that while
this approach would be appropriate for non-emergency BLS
transportation , competitive bidding by Medicare might reduce
the timeliness, availability and quality of care provided to
Medicare beneficiaries in emergency situations. We recognize
that more research may be needed to insure continued high
quali ty and timeliness of emergency medical transportation
received by Medicare beneficiaries. Therefore, we have
revised our recommendations to include seeking competitive
bidding authority for BLS transportation, followed by
consideration of a similar approach for ALS transportation.




                                ii­

                                           .. .



                     II.   INTRODUCTION


Medicare Part B covers ambulance services to a hospi tal,
nursing home or the patient' s home, and     only if other
means of transportation would endanger the beneficiary
health" (42 CFR 405.232(i)(2)).   Payment is based on
customary and prevailing rates in an area. A base rate is
paid for each trip. Additional charges may be allowed for
mileage, oxygen, w iting time, and night or emergency     trips.
Most of Medicare s ambulance costs are for " basic life
support (BLS) a ambulances, which perform scheduled or
nonscheduled transfers of nonambulatory patients to or from
their homes, hospi tal or nursing home, at the time
hospi tal admission or discharge, or for scheduled therapy.
BLS ambulances are staffed by emergency medical technicians
(EMTs). Most BLS services are provided by private ambulance
companies.
In 1982, Medicare extended coverage to include " advanced
life support (ALS)" ambulance service. ALS ambulances are
actually mobile intensive care units, staffed with highly
trained paramedic personnel and equipped with speciali zed

equipment for use in life-threatening situations, such as
highway accidents or cardiac arrests. ALS units respond to
911 emergency calls and are typically associated with local
fire departments or rescue squads. A detailed description
of different levels of medical transportation appears at
Appendix A.
Part B reimbursement for ambulance services has increased
dramatically over the past decade. Total 1974 expenditures
of $34 million grew to over $350 million in 1985. At an
average annual increase of more than 20 percent, ambulance
costs have grown faster than most other Part B services, and
far faster than the rate of inflation.
Reimbursement rates vary widely across the country. In
1984, the average cost per claim ranged from $55 in
Tennessee to $175 in northern California, with a mean of
$106.
This inspection was conducted in response to concerns that
Medicare may be paying unreasonably high amounts for ALS and
routine short- distance BLS ambulance trips. In addition,
rapid cost escalation has called into question the
appropriateness of the reasonable charge methodology in
determining ambulance reimbursement.
The purpose of this inspection was to determine: 1) why
Medicare costs have grown so rapidly; 2) how to control
costs;  3) whether public entities can be expected to shift
addi tional costs to Medicare in the future; and 4) the
impact of ALS coverage on Medicare costs.
The inspection was conducted in California, Flor ida,   New
York , Pennsyl vania, Michigan, Ohio, Texas and Massachusetts,
where more than half of Medicare ' s total ambulance costs are
incurred.   Contacts included 9 Medicare carriers, 15 State
and local emergency medical services agencies, 51 ambulance
suppliers (ci ty f ire and rescue services, pr i vate companies,
and volunteer fire departments), 50 purchasers of ambulance
transportation (VA hospitals, heal th maintenance organi za­
tions and hospi tals), and the Amer ican Ambulance
Association.




                              -2­

                                                 ----


                         III.    FINDINGS
WHY HAVE AMBULANCE COSTS RISER SO DRATICALLY?

Part B ambulance costs have risen at an average annual rate
of over 20 percent since   1974. Data are not available on
the extent to which the increase is attributable to
increased utili zation. However, the inspection identif ied
four other major factors which have contributed to the rapid
rise in Medicare ambulance costs: 1) inability of the
reasonable charge methodology to control increases in
supplier charges; 2) higher EMS standards at every level,
in large part a response to Federal     legislation;
                                                   3) a shift
of public provider costs for emergency ambulance services to
Medicare; . and 4) no inflationary cap on Medicare ambulance
increases prior to October l, 1985.

    REASONABLE CHARGE METHODOLOGY HAS RESULTED IN

    UNCONTROLLED RATE INCREASES

    The Medicare Part B reasonable charge methodology is
    based upon the customary and prevailing charges of
    suppliers wi   thin a particular
                                  10cality. The prevailing
    charge is intended to limit individual provider
    increases, but over a period of years, the reasonable
    charge methodology has resulted in nationwide annual
    increases in ambulance costs greater than increases in
    most other Part B services, and far in excess of the
    rate of inflation. The following chart shows estimated
    annual increases in Part B ambulance costs since 1974.
              MEDICARE PART B AMULANCE EXPENDITURES
                      Estimated Cost
      Year            (in millions)         Percentaqe Increase
      1974

      1975                                       32.

      1976                                       24.

      1977                                       26.

      1978                                       22.

      1979          no est. available            56.

      1980                136                (2- year    period)

      1981                165                    21.

      Ig82                188                    13.

      1983                231                    22.

      1984                248                    . 7.

      1985                305                    23.

      1986                385                    26.

      1987                435                    13.

      1988                495                    13.

    Source F1gures for 1974-83 prov1ded by Bureau of Data
    Management Systems, HCFA, based on 5 percent carrier
    sample of claims. Figures for 1984-85 based on HCFA
    Payment_ Record Tables, 100 percent samle. Estimates
    for 1986-88 provided by Office of the Actuary, HCFA.


                                -3­

While these figures illustrate the dramatic rise in
ambulance costs, we believe that actual Part B expen­
di tures may have been underreported. Approximately $31
million in  Part B expenditures made by one carrier in
our sample were not included in the 1985 estimate.
In addition , EMS systems in some areas are hospital-
based, with ambulance costs billed to Medicare through
the cost report. In three of our sample areas, we
discovered over $4 mil1ion in ambulance costs reimbursed
through cost reports on a reasonable cost basis.  other
ci ty or county EMS systems may also be claiming
ambulance reimbursement through hospital cost reports
which are not reflected in the chart above.

FEDERAL LEGISLATION HAS RAISED COSTS AS WELL AS STANDARDS


Federal legislation and standards have had a direct
impact on the development of emergency medical services,
incl uding ambulance services, throughout the United
States .
The National Highway Safety Act of 1966, administered by
the Department of Transportation, supports State
programs to reduce traff ic accidents, deaths and
injur ies. It has led to upgraded emergency medical
services at the 10cal level, through ambulance purchase,
training of ambulance attendants and drivers, and
improved ambulance medical equipment.

The Emergency Medical Services Systems Act of 1973
provided a mechani sm for communi ties to establish
regular EMS delivery systems. Administered by the
Public Health Service, the Act required that federal1y­

funded emergency care programs use a systems approach to
providing emergency response and medical care.    The
approach centered around 15 systems components, such as
manpower, training, communications and transportation,
and seven cr i tical patient groups, including acute
cardiac victims. Now a part of the Preventive Heal 

Services Block Grant, these funds are used by States for

planning, establishing and expanding their EMS systems.

The General Services Administration (GSA) has published

specifications for the design, performance, and
equipping of ambulances used by Federal agencies.   About
half of the States have adopted the GSA  standards
(Federal Specification KKK-A- 1822A) as a requirement for

State licensure. Many others have established their own

vehicle standards.
Today, every State has an EMS office and some type of

statewide EMS system. Thirty-seven States have passed
EMS laws. In addition to vehicle standards, many States




                        -4­

have adopted minimum personnel requirements. Some 39
States are divided into multiple EMS regions served by

local councils..
The actual delivery of emergency services is usually the

responsibili ty of 10cal governments, which may provide

services directly through fire or rescue departments or

contract with private ambulance companies for emergency

medical transport. In some areas, 10cal units of

government have the authority to set maximu rates for
ambulance services. Where this has occurred, ambulance

rates tend to be somewhat lower than in areas where rate

setting systems are not in effect.
Since passage of the EMS Services Act, every aspect of

emergency medical services has been upgraded and

improved. Emergency medical services are available in
virtual1y every part of the U. S. Highly trained staff

using state of the art vehicles and equipment can

respond' to any type of medical emergency, providing on-

site treatment and stabilization, then rapid transport

to the hospital, following established medical protocols

and in constant radio communication with a physician

trained in emergency medicine. A new level of service,
advanced life support (ALS), has been created to provide
emergency life-saving treatment during  transit.
The rise in standards has not been limi ted to ALs
emergency vehicles and personnel. Basic ambulances are
constantly being improved and upgraded, and staffing
qualifications are higher than ever before.
Improved response times, better equipped vehicles, and
highly trained staff have all resulted in improved
services to the public.  They have also resulted in higher
costs for public agencies, private suppliers, third
party payers, and consumers.
LOCAL GOVERNMENTS HAVE SHIFTED EMERGENCY AMULANCE
COSTS TO MEDICARE
Emergency ambulance services have tradi tional1y been
provided . by local fire departments or volunteer fire and
rescue squads. Histor ically, these services were fully
financed by 10cal taxes and contributions.
Declining 10cal revenues coupled with rising operational

costs have caused most public agencies to begin bil1ing

individuals and third party payers for emergency

ambulance transportation. Since public agencies are

largely supported by 10cal tax revenues, fees are
usual1y set at a low rate designed to help defray costs,
rather than to cover the actual cost of providing the
service.


                         -5­

    To save money, a growing number of cities and counties
    contract out their entire EMS systems to the private
    sector.  Several cities visited during this inspection
    had begun submitting bills in the last few years.
    Contractors collect fees from individuals and all
    available third party sources. In addition , local
    governments may provide subsidies to defray the cost of
    transporting uninsured individuals who are unable to pay
    a fee.
    The inspection found that much of this shift has already
    occurred. In   a survey of the 100 largest U. S.  cities,
    86 indicated that Medicare is being charged for
    emergency ambulance services. Of the remaining 14 who
    do not charge, 3 are considering charging for transport
    in the near future. Some volunteer ambulance companies,
    tradi tionally providing free ambulance transport , now
    charge for the    service.others can be expected to begin
    charging in the future.
    NEW REGULATION WILL LIMIT FUTURE REIMBURSEMENT INCREASES


    Historically, reimbursement increases in nonphysician
    Part B services have been exempt from economic index

    limi tat ions previously applied to physician services.
    Over the years, increased ambulance supplier charges

    were fully reflected in higher prevailing charge screens

    established by carriers.
    In a f inal regulation which became effective October
    1985, such increases are limited by a new factor, the

    "inflation- indexed charge, ft representing the reasonable
    charge from the preceding fee screen year pIus an

    inflation adjustment factor. This regulation wil1
    control the rate of future increases for ambulance and
    other Part B nonphysician    services.
                                         However, it does
    not affect increases which took place in prior years.

ARE MEDICARE AMULANCE COSTS REASONABLE?
To determine the reasonableness of Medicare payments, we
compared BLS base rates paid by Medicare, private hospitals

and Veterans Administration hospitals in the States we

visited.
    MEDICARE COMPARED WITH HOSPITALS


    Under the Prospective Payment System (PPS), Part B no
    longer covers the transfer of a Medicare beneficiary
    between one hospital and another (for treatment or
    tests) if the patient remains an inpatient of the first
    hospi tal. These costs are included in the Part A
    hospi tal   payment.
Hospitals have begun contracting with private ambulance

companies to transport these patients, often at a cost

substantially lower than the Medicare prevailing. Here

are several examples:


    In a major southwestern city, a private company
    transports patients between a hospi tal and a 10cal
    testing center for $35 each way.   When that patient
    is discharged to home or nursing home, the supplier
    charges Medicare $110.

    In a major city in the northeast an ambulance
    company transports inpatients for diagnostic tests
    under contract for $55 per trip. The Medicare
    prevailing is $106.

    A company in a west coast ci ty contracts with a
    hospital and an HMO for $64. 50 per trip. Medicare
    allows $ 90.
These examples illustrate that at least in some areas,

Medicare is paying more for ambulance services than

other large purchasers that have been able to negotiate

contracts with ambulance companies.


ONE CARRIER' 5 EXPERIENCE


The Medicare Carriers Manual (HIM 5246) provides that
when the use of customary and prevailing charge data
results in payment rates that are not "inherently
reasonable, " the carrier should consider other factors
in determining payment. HIM 5246 cites several types of
si tuations where charges might not meet the inherent
reasonableness standard. Among those which could apply
to ambulance services are
    charges in a particular 10cali ty may be
    substantially out of line with charges in other

    localities or other carriers I service areas, and the

    differences in prices cannot be justified solely on

    the basis of economic factors;


    sudden increases in charges that cannot be readily

    explained by the normal rate of inflation or by

    other economic factors or technology; and


    charges do not reflect the influence of a
    competitive marketplace, i. e., the market is
     dominated" by one or a few suppliers.

Empire Blue Shield ,   the carrier serving greater New York
Ci ty, has used its inherent reasonableness authority to
limi t expenditures for ambulance   services.


                          -7­

  The following chart summarizes the savings achieved by

  Empire Blue Shield. A detailed breakdown of savings is

  provided at Appendix B.



        AMBULANCE SAVINGS BASED ON INHERENT REASONABLENESS
            Empire Blue Shield (Greater New York c ty)
                     April 1984 - March 1985


                 Number               Allowed Amounts               Savin
procedure                        75th          Inherent         Allowed
                Services     Percentile       Reasonable.
BLs Base       285, 472    $39, 150, 148     $32, 736, 713   $6, 413, 435   16.
 Rate
ALs Base            788         260, 365         180, 325         80, 040
 Rate
Mi leage        591, 437        959, 107         296, 880       662, 227    13.
Oxygen           35, 793     1 , 145 , 970       966, 411       179, 559    15.
Other             4, 725        111, 628           96, 193        15, 435   13.
 Services
  TOTALS                   $46, 627, 218     $39, 276, 522   $7, 350, 696   15.
  In the one- year period ending March 31, 1985, Empire

  Blue Shield saved $ 7. 4 mil1ion in al10wed charges, and

  $5. 9 mil1ion in actual payments for ambulance services.

  This represents 15. 8 percent of what would have been

  paid under the reasonable charge methodology. Over $ 

  million (87. 2 percent) of the savings resul ted from

  lower rates for BLs.


  To arrive at an estimate of potential national savings

  we applied the percentage of savings achieved by Empire

  Blue Shield (15. 8 percent) to the Office of the Actuary

  estimate of Part B expenditures for FY 1987 ($435

  million) . Based on these calculations, potential

  nationwide annual savings of $69 million could be

  realized if all carriers saved 15. 8 percent through use

  of their inherent reasonableness author i ty.

  We surveyed all other Medicare carriers to learn whether

  they use any means other than the reasonable charge

  methodology to set ambulance allowances. Carrier

  responses revealed the following:

         Empire Blue Shield is the only carrier which has
         used its inherent reasonableness authority to limi
         costs for ambulance services.




                                -8­
               One carrier, in a northwestern             State, limits its
               allowance for disposable supplies.

               AIl other carriers use the reasonable charge
              mthodology exclusi vely to determine ambulance
               reimbursement rates.

               Carriers are not aware of rates paid by the VA,
               hospi tals or other major purchasers of ambulance

               transportation.
          It is apparent from the Empire Blue Shield experience

          that a real opportunity exists for substantial program

          savings through application of carriers' inherent

          reasonableness authority.
          MEDICARE COMPARED WITH THE VETERANS ADMINISTRATION

          Most Veterans Administration (VA) hospitals contract for
          BLs ambulan e services to transport non-ambulatory
           atients between their homes and the hospital for
          admission or discharge. As with Medicare patients , VA
          tr ips are usual1y scheduled in advance, and patients,
          although in need of basic medical attention, are not at
          high risk.

          The following chart sumarizes our findings for six

          sample States where VA hospitals contract with private
          companies and Medicare pays according to prevailing

          charges.
         MEDICARE AND VETERANS ADMINISTRATION BASE RATES FOR BASIC LIFE SUPPORT

                                SIX SAMPLE STATES. FY 85




                     MEDICARE         VETERANS     Average    MEDICARE          POTENTIAL
                  Allowed   Paid       ADMIN.      Savings     Total            ESTIMATED
                    Per      Per      Negotiated     Per        Paid             SAVINGS
   STATE           Claim    Cla im     Base Rate    Claim      Claims            (d x e)
                     (a)        (b)      (c)         (d)        (e)         Amunt

California       $ 99.      $79.        $66.       $13.       284, 232   $ 3, 763, 232     16.
Ohio               91.       72.         44.        28.       165, 661       638, 508      38.
Texa s             82.       66.         53.        13.        84, 343       117, 545      20.
Michigan           93.       74.         47.        26.       193, 241       155, 670      35.
Penneyl vania     106.       85.         56.        28.       284, 752       078, 414      33.
Massachusetts 119.           95.         85.                  230, 614       255, 405      10.

   TOTAL POTENTIAL SAVINGS                                               $25, 009, 978     24.




                                          -9­

 VA base rate payments ranged from an average of 10.
 percent to 38. 4 percent 10wer than Medicare payments for
 the same    service. IfMedicare BLS base rates were the
 same as the YA, annual savings in these six States could
 amount to as much as $25 mil1ion for this one procedure.
 State by State comparisons of BLS base rates appear at
 Appendix C.
 The one exception identified was Florida, where VA rates
 approximate Medicare rates; this is because in Florida
 VA hospitals pay on the basis of reasonable and
 customary charges,   i. e.,
                          they use the Medicare approach.

 As discussed earlier the one carrier which has used the

 inherent reasonableness authority has demonstrated

 overall savings of 15. 8 percent over what would have

 been paid using the reasonable charge methodology. A

 comparison of VA rates with the carrier' s savings based

 on inherent reasonableness indicate that even greater

 savings could be achieved through use of the VA

 competitive bidding approach.
 As shown below, Empire Blue Shield saved 16. 4 percent in
 BLs base rate expenditures through using inherent
 reasonableness rather than the reasonable charge
 methodology. The rates obtained by VA hospi tals for BLS
 base rate services averaged 42. 5 percent lower than the
 Medicare reasonable charge rates, and 31. 3 percent lower
 than the carrier paid through use of inherent
 reasonableness.

    MEDICARE AND VETERANS ADMINISTRATION BASE RATES
      EMPIRE BLUE SHIELD, APRIL 1984 - MACH 1985

                             MED ICARE              VETERANS
               REAS. CHARGE INHERENT REAS.           ADMIN.
AVG. PAID
PER CLAIM        $ 109. 71             $ 91.        $ 63.

SAVINGS OVER                           $ 17.        $ 46.
REASONABLE                               (16. 4%)    (42. 5%)
CHARGE METHOD.
SAVINGS OVER                                        $ 28.
INHERENT                                             (31. 3%)
REASONABLENESS

  See Appendix D for addi tional         detail.




                                10­

             . ,




    We also compared mileage, oxygen and waiting time rates

     aid by VA hospitals and Medicare in two sample States.
    The range of payment rates is summrized below, and
    shown in detail at Appendix


     MEDICARE AND VA RATES FOR MILEAGE, OXYGEN AND WAITING TIMES

                     CALIFORNIA AND TEXAS, FY 85




                         CALIFORNIA                             TEXAS
  Item      Medicare Pays'l         VA Pays      Medicare Pays          VA Pays
Mileage     $ 4. 40-$ 5.          $1. 00-$           80-$ 2.       $1.10-$
Oxygen      $11 . 20 -$ 23 . 20   $0. 00-$ 25.   $ 6. 40-$20.      $0. 00-$25.
Wai ting
 Time
 (Der hr.   $22. 40-$70.          $0. 00-$100.   $16. 00-$20.      $0. 00-$60.
*80 percent of allowed amount


   This chart illustrates the dramatic disparity in

   payments, within and between two Federal programs, for

   i terns and services which are essentially identical

   across the country.
   The preceding data and discussion clearly demonstrate
   that Medicare could achieve annual savings of up to 25
   percent over current ambulance expenditures by adopting
   a competitive bidding approach for BLS transportation
   similar to the VA system. Legislation would be required
   to provide carriers with the authority to negotiate
   reimbursement rates with suppliers.
   COMPETITIVE BIDDING FOR EMERGENCY TRANSPORTATION

   Emergency medical services (EMS) transportation has been
   contracted out through competitive bidding in a number
   of large cities around the country.
   The majority of large cities provide EMS through city

   fire or rescue departments. As early as 1981, however,

   18 of the nation' s most populous cities were contracting

   wi th pr i va te ambulance companies to provide EMS

   transportation or had established their EMS transpor­

   tation systems as " public utilities, " utilizing private

   contractors as the primary provider of emergency

   ambulance transportation.





                                     11­

   While operational details of these systems differ, they

   are general1y characterized by centralized dispatch in

   response to 911 calls, no call screening or refusals to
   transport, and no on-scene collections. Contract
   providers must be f inancially stable, meet State
   requirements for equipment, staffing and adherence to

   medical protocols, as well as locally established

   response times.
                         Journal of Emergency Medical
   Services indicates that 18 of the nation I s most populous
   A 1985 survey by the 




        es still use private contractors to provide EMS
    transportation.  This would appear to indicate that EMS
   transportation can be contracted out successfully,
   wi thout a reduction in timeliness of response or the
   quality of patient care.
WHAT HAS BEEN THE FISCAL IMPACT OF ALS?

In 1982, Medicare recognized Advanced Life Support (ALS) as

a new covered service. Carriers were instructed to
establish separate prevailing charge screens for ALS and BLS
base rates. ALS rates are higher than BLS rates, and the
differences in rates vary greatly.
In one area visited, where EMS is tax supported and rates
are set by 10cal government, the ALS rate was $90 and the
BLS base rate $70. In another, with no subsidies and no
local rate setting, the ALS base rate is $275, compared with
a BLS base rate of $115.
In the States we visited, we identified severa 1 factors

which appear to affect billings for ALS services.

             Most private ambulance suppliers provide BLS

             transportation exclusi vely.
             Public and private suppliers who have the equipment

             and staff needed to provide ALS transportation bil1

             for ALS only when this level of service is actually

             provided.
             A substantial portion of ALS services is provided
             local public agencies (usually fire and rescue
             services).  These agencies often set 10w rates which
             represent only a portion of their costs to deliver
             the service.

             Some volunteer and public agencies which provide ALS

             services do not bill for the service.





                                   12­

We reviewed carrier data to determine the portion of
Medicare Part B ambulance trips being billed as ALS. The
following  chart shows the percentage of trips and Medicare
costs attributed to ALS for those carrier areas for which
figures were readily available.

                    ADVANCED LIFE SUPPORT TRIPS
               AS PERCENTAGE OF ALL AMULANCE TRIPS

                                      ALS as % of     ALS as % of
                     Per iod          Total Trips   Total Base Rate
 Area               Covered               Allowed     Dollars Paid

  Greater
  New York
  City              04/84- 05/85
  Pennsylvania      01/84- 12/84
  Flor ida          01/84- 12/84                            8% *

  Washington,
    C. and
  Arlington,
  Virginia          01/84- 12/84
  Iowa              10/84- 12/84

 * Represents billed amounts.


These figures tend to confirm our field finding that,
despi te higher ALs rates, the overall fiscal impact on
Medicare has been minor, because ALS represents only a       small
portion of total Medicare ambulance services.
OTHER OIG AC IVITIES
Both other OIG components, the Office of Audit (OA) and the
Off ice of Investigations (OI), have been involved in
activi ties related to Medicare ambulance payments.
In a report issued in October 1985, the Office of Audit (OA)
found that one carrier had been improperly reimbursing
ambulance suppliers for round-trip transportation between
pa tients' homes and freestanding renal dialysis centers.
This is not a covered service. OA recommended that the
carrier establish procedures to ensure denial of such
claims.




                                   13­

In a separate review completed June 1986, OA found that
based on one carrier' s experience, Medicare carriers can
increase the eff iciency and effectiveness of their ambulance
claims processing by adopting a place-of-service coding

system. By requiring ambulance suppliers to annotate place-

of-service codes in the origin and destination blocks of

ambulance claims, carriers could use prepayment computer

edi t screens to determine whether each claim meets the

destination and level of service requirements of the

regulations.
Since 1983, the Office of Investigations has pursued 46
investigations of ambulance suppliers.  The two most
prevalent abuses involved transporting patients in vans
rather than ambulances and billing for medically unnecessary
ambulance services.
To date, convictions or pleas have been obtained in eight
instances, and civil and administrative penalties in four
cases.  Twenty-two ambulance suppliers and their owners have
been excluded from Medicare participation. Of the remaining
24 cases, 7 are before Grand Juries, indictments have been
returned in 2, and 4 civil monetary penalty actions are in
process.  Appendix G provides further detail on the
investigations in process at this time.




                              14­

                           IV.   RECOJIIIA l' IONS
ISSUE:
Carr ier use of the reasonable charge methodology to
determine ambulance reimbursement rates has allowed rate
increases far in excess of the rate of           inflation.
                                                      Medicare
payments are substantially higher than the amounts paid by
other purchasers for comparable services. One Medicare
carr ier , which has applied its inherent reasonableness
author i ty to ambulance expenditures , has achieved annual
savings of 15. 8 percent as compared with rates determined by
the reasonable charge methodology. The Veterans
Administration, through competitive bidding, has obtained
BLS rates averaging 25 percent 10wer than Medicare allowed
 harges in six sample States.

RECOMMNDATIONS:

       Require carriers to use their inherent reasonableness

       author i ty to limi t excessive charges for ambulance

       services.
       Seek legislative authority to allow carriers to
       establish ambulance reimbursement rates through
       competi tive bidding (the VA approach) for BLS ambulance
       transporta tion.

3,.	   Consider the feasibility of seeking a legislative change
       to allow competitive bidding for ALS ambulance
       transportation.

                             ESTIMATED SAVINGS


             Recommendation	                         Potential Saving

         Apply inherent     reasonableness                $69 million

         Legislative change to allow	                    $513 million

         competitive bidding to	                     ( $102 . 5 m. x 5 yr   s)
         establish 10wer BLs rates

         Legislative change to al10w                      No Estimate
         competi ti ve   biddi ng to
         establishing lower ALS         rates.




                                       -15­

COMMNTS RECEIVED AND OIG RESPONSE
Comments on the draft report were received from the Health
Care Financing Administration (HCFA) and the American
Ambulance Association (AA).
Both respondents recognize that changes are needed in the
way ambulance services are reimbursed. While generally
supportive of the concept of inherent reasonableness, they

are concerned about the specific method and factors which

should be applied to determine the reasonableness of

ambulance charges. In addition, the Department is actively
considering the use of inherent reasonableness for physician
services under Part B, fol10wing guidance provided in the
Omnibus Reconciliation   Act.The AA has offered to assist
HCFA in determining the specific factors which should be
applied to insure that charges will, in fact, be reasonable.
The OIG strongly supports HCFA' s decision to review

ambulance reimbursement methodologies, and urges HCFA 

take action to develop inherent reasonableness        criteria.
Nei ther HCFA nor the   AA agreed with our second
recommendation, which called for HCFA to seek legislative
authority to permit competitive bidding for ambulance
services.  Both respondents indicated that while this
approach would be appropriate for non-emergency BLS
transportation, competitive bidding by Medicare might reduce
the timeliness, availabili ty and       quali ty of care   provided to
Medicare beneficiaries in emergency situations.
While the OIG is aware of at least 18 major American cities
which provide 911 emergency ambulance transportation through
competitively awarded contracts with private companies, we
recognize that more research may be needed to insure
continued high quali ty and timeliness of emergency medical
transportation received by Medicare beneficiaries.
Therefore, we have revised this recommendation to include
seeking competitive bidding authority for BLS
transportation , followed by consideration of a similar
approach for ALS transportation.




                                -16­

                           APPENDICES



TITLE                                       APPENDIX

Levels of Medical Transportation


Ambulance Savings Based on Inherent

Reasonableness, Empire Blue Shield

April 84 - March 85


potential Estimated Savings by State,
BLS Base Rates (Medicare payments
compared to VA Rates, FY 85)
        Sumary Page                            C-l
        State by State comparisons


           California                          C-2
           Ohio                                C-3
           Texas                               C-4
           Michigan                            C-5
           Pennsyl vania                       C-6
           Massachusetts
           Florida
Comparison of Medicare and Veterans

Administration Rates, Empire Blue Shield

April 84 - March 85

Medicare and Veterans Administration

Mileage, Oxygen and Waiting Time

Rates, FY 85.


        California
        Texa s                                 E-2
ALS and BLS Base Rate Prevailings by

Carrier Area, FY 84

Active Investigations of
Ambulance Suppliers

                                                    APPENDIX A



              LEVELS OF MEDICAL TRANSPORTATION



Advanced Life Support (ALS)

An ALs ambulance has complex speciali zed   life sustaining
equipment and radio contact with a physician or hospi tal.
ALS ambulances are mobile intensive care units, used in true
emergencies for life-threa tening conditions. These
ambulances are staffed with paramedics equipped to provide
intravenous therapy, anti-shock trousers, airway main­
tenance, defibrillation of the heart, and other advanced
procedures such as cardiac (EKG) moni tor   ing.
                                              ALS
transportation represents only a small portion of Medicare
ambulance expenditures.
Basic Life Support (BLS)

A BLs ambulance provides transportation pIus equipment and
staff for such basic services as control of bleeding,
splinting fractures, treatment for shock, and cardio­
pulmonary resuscitation (CPR). Medicare patients are
typically transported in BLS ambulances for scheduled
hospital admission or discharge, outpatient therapy,
transfers between hospi tals, and to or from a home or
nursing home. BLS ambulances are staffed with emergency
medical technicians. Most Medicare ambulance expenditures
are for BLS ambulances.

Wheelchair Van

The third level of transportation , litter or wheelchair
vans, provides non-emergency medical transportation for
medically stable individuals with severe mobility problems.
These vehicles are not equipped with medical equipment or
personnel. Typically, patients are transported to medical
appointments or physical   therapy. Medicare does not cover
this level of service.
                                                                                                                                                                 '(j

                                               AMULAE SAVINGS          BASED ON INHERE REASONABLENESS
                                                    E.p	 re Blue Shield      Greater NeN York City

                                                                  April 1984 - March 1985


Procedure                      Nu.ber of        75th Percenti1e Inherent Rea.onablene..                                             Saving.

Code                           Serv ices    preva                 Allowe          preva      ng       Allowed       Allowed               Paid       Percen t

BASIC LIFE SUPPORT


 W0630 " W0640      148, 673    $ 140.     $ 20, 814, 220                       $ 118.       $ 17,    543, 414   $ 3, 270, 806    $ 2, 616, 645       15.

  (Base Rate, trips originating within New York City)


 AOOlO " A0022       82, 047      127.       10, 497, 740                         102.                368, 794       128, 946           703, 156      20.

  (Base Rate, trips originating outside New York City)


 W0540 " W0550       44, 829      148.          644, 384                          127.                693, 283       951, 101           760, 881      14.

  (Base Rate, night, trips originating within New York City)


 W0560 " W0570 9, 923                      120. 29 1, 193, 804 114. 00                       1, 131, 222 62, 582 50,                           066
  (Base rate, night, trips originating outside New York City)

       Subtotals 	                                                        l48                $ 3 2.         13       413.         $ 5   130.          16.

ADANCED LIFE SUPPORT
 Ao220 " W0590          761       180.          316, 980     180.                                     316, 980          - 0 -             - 0 -       - 0 ­
  (Base rate, trips originating within New York City, day or night)
 W0600	                 116       220.          465, 635                          203.                429, 548         36, 087            28, 870
  (bay base rate, trips originating outside New York City)

 W061 0                            911       250.                477, 750         227.                433, 797         43, 953            35, 162
      ht base
ALS Subtotals                                                    260, 365                             180. 325        80, 040             64. 032

MI SCELLEOUS
A0020                          591, 437                          959, 107	                            296, 880       662, 227           529, 782      13.
  ( Hi 1eage)
 A0060	                            124       20.                  82, 668          19 . 00             78, 456              212                370
  (Waiting Time)


 A0070	                         35, 793      32.                 145, 970          27.                966, 411       179, 559           143. 647      15.
  ( Oxygen)
W0620	                             492        50.                 24, 600          31 . 00             15, 252              348                478    38.
  (Additional attendant)

 W0625                             109       40.                          360      22.                    485               875                500    43.

  ( EKG )

Mhce11aneou8	        btota1s                            $ 6 216.          705                                        857    221                777    13.

GRAD TOTAL	                                             $ 46, 627.        218                $ 39.    276, 522   $ 7. 350. 696 $ 5, 880. 557         15.
                                                            APPENDIX C­



          POTENTIAL ESTIMATED SAVINGS BY STATE BLS BASE RATES

            (Medicare payments compared to VA rates, FY 85)



                    ESTIMATED         ESTIMATE            POTENTIAL
STATE            MEDICARE PAYMENT      PAYMNT         ESTIMATED SAVINGS*
                      (80% of           USING
                  Allowed Amount)     VA RATES        Amount        Percent
Cal i fornia     $ 22, 611, 804     $18, 847, 423   $ 3, 764, 381    16.
Ohio               12, 063, 156         424, 926        638, 230     38.
Texas                  589, 132         471, 866        117, 266     20.
Michigan           14, 377, 130         221, 461        155, 669     35.
Pennsyl vania      24, 217, 484      16, 139, 743       077, 741     33.
Massachusetts      22, 008, 780      19, 752, 089       256, 691     10.
TOTALS            100, 867, 486      75, 857, 508    25, 009, 978    24.


   Slight discrepancies between potential estimated savings
   on this page and individual State calculation pages are
   due to rounding.
       Florida is not included in sumary because VA hospitals
       in that State have not negotiated any contracts for
       ambulance services, and pay more than Medicare pays for
       this service.

       New York City is not included because the Medicare
       carrier already uses inherent reasonableness authority
       to limi t ambulance reimbursementrates.   (Detail on New
       York City rates appears at Appendix D).
                                                                          APPENDIX C-2


STATE:      CALIFORNIA

      VETERANS ADMINISTRATION HOSPITAL BASE RATES FOR AMULANCE SERVICES

      (a)            (b)                  (c)                 (d)                (e)
VA HOSPITAL        CONTRACT          EST. t TRIPS      AVERAGE BLS          TOTAL PAID
                                        FY 1985         BASE RATE           ( ESTIMATE )
Los Angeles          YES                   800                                   162, 400
Martinez             YES                   437                    75*             32, 775
Palo Al              YES                   871                    58*            108, 518
San Diego            YES                   320                                    40, 920
San Francisco        YES                   300                    90*            207, 000
Sepul veda           YES                   382                                    26, 358
Loma Li nda          YES                   800                                    72, 000
Long Beach           YES                   300                  60*               18, 000
Fresno               YES                   900                 150*              135 000
                      TOTAL            12, 110                                   802, 971
WE IGHTED    AVERAGE BASE RATE ((e) divided by (c) J = $66.

* includes mileage wi thin defined            10cal area.

II.   MEDICARE ALLOWABLES, FSY 1985

      (a)                     (b)                        (c)               (d)
CAIER AREA        BLS BASE RATE                       t TRIPS             TOTAL $
                    PREVAILING                         PAID               ALLOWED
BLUE SHIELD OF CALIFORNIA
                           $ 105.                     27, 713                909, 865
                              115.                    54, 851                307, 865
                              115.                    34, 186                931, 390
                               87.                    23, 495                055, 813
TRNSAMR ICA-OCC I DENTAL
                           $ 106.                           312              669, 072
                               90.                    94, 459                501, 310
                               90.                          216              889, 440
                                     TOTAL           284, 232           $ 28, 264, 755


AVERAGE ALLOWED PER CLAIM           ((d) divided by (c) J = $99.

AVERAGE PAID PER CLAIM (80% of $99. 44) = $79.


POTENTIAL SAVINGS PER CLAIM IF MEDICARE PAID                SAM RATE AS THE

VETERANS ADMINISTRATION ($79. 55             minus $66. 31)    = $13. 24 or 16. 6%.

POTENTIAL ANNAL SAVINGS ($13. 24 per trip x 284, 232 trips) =
$ 3, 763 , 232
                                                                                             APPENDIX C-3

STATE::        OHIO

        VETERANS ADMINISTRATION HOSPITAL BASE RATES FOR AMBULANCE SERVICES


        (a)	             (b)                       (c)                     (d)                    (e)
VA HOSPITAL           CONTRACT         EST. t TRIPS                AVERAGE BLs               TOTAL $ PAID
                      es or no)            FY 1985                  BASE RATE                 (ESTIMATE)
         nnat           YES                     125                                                     625
Dayton                  YES                     500                                               60, 000
Cleveland               YES                     116                                             281 336
                       TOTAL                    741	                                          $ 346, 961

      WEIGHTED AVERAGE BASE RATE       ((e) divided by 	            (c))         = $44.



II.     MEDICARE ALLOWABLES, FSY 1985


               (a)             (b)                           (c)                       (d)
               AREA      BLS BASE RATE                      t TRIPS                  TOTAL $
                           PREVAILING	                        PAID                   ALLOWED
                                                            13, 960                   512, 800
                                                            21, 469                   502, 830
                                                             39, 164                  524, 760
                                                             12, 761                  020, 880
                                                                 096                  304, 800
                                                                 914                  319, 410
                                                                 513                  201, 040
                                                                 862                  263, 790
                               100                               256                  725, 600
                                                             17, 551                  579, 500
                               145                           12, 473                  808, 585
                                                                 268                  212, 420
                                                                 970                  358, 200
                                                                 109                  186, 540
                                                                 295                  557 700
                                     TOTAL                 165, 661                15, 078, 945

AVERAGE ALLOWED PER CLAIM ((d) divided by (c)) = $91.

AVEAGE PAID PER CLAIM (80% of $ 91. 02) = $72.
POTENTIAL SAVINGS PER CLAIM IF MEDICARE PAID SAM RATE AS THE VETERANS
ADM.INIsTRATION ($72. 82
                       minus $44. 82) = $28. 00 or 38. 5%.
POTENTIAL ANNAL SAVINGS ($28. 00 per trip x 165, 661 trips) =
$4, 638, 508.
                                                                                   APPENDIX C-4

STATE::       TEXAS

        VETERANS ADMINISTRATION HOSPITAL BASE RATES FOR AMULANCE SERVICES

        (a)              (b)                    (c)                 (d)                  (e)
VA HOSPITAL           CONTRACT           EST. i TRIPS            AVERAGE BLS      TOTAL $ PAID
                       es or no)           FY 1985                BASE RATE        (ESTIMATE)
      g Spr              YES                   550                                        38, 500
Dalla s                  YES                   400                                       122, 400
San Antonio              YES                   700                                       148, 500
Marlin                   YES                   312                                        12, 480
Temple                   YES                   999                                        34, 965
Hous ton                 YES                   750                                       105, 000
 (No contracts in     remaining        areas of the      State)
                       TOTAL                   711	                                    $ 461, 845

      WEIGHTED AVERAGE BASE RATE ((e) divided by (c)) = $53.


II.     MEDICARE ALLOWABLEs, FSY 1985

              (a)                (b)                       (c)                  ( d)
              AREA      BLS BASE RATE                   t TRIPS             TOTAL $
                          PREVAILING	                     PAID              ALLOWED
                                                        15, 664                 018, 160
                                                            995                 779, 675
                                                        13, l71                 987, 825
                                                        16, OS 2                043, 380
                                                            505                 412, 875
                                 125                        956                 744, 500
                                       TOTAL            84, 343                 986, 415

AVEGE ALLOWED PER CLAIM ((d) divided by (c))                       = $82.

AVEGE PAID PER CLAIM (80\ of $ 82. 83) = $66.
POTENTIAL SAVINGS PER CLAIM IF MEDICARE PAID SAM RATE AS THE VETERANS
ADMINISTRATION ($66. 27        minus $53. 02)         = $13. 25 or 20.    0\.
POTENTIAL ANNAL SAVINGS ($13. 25 per trip x 84, 343 trips) = $1, 117, 545.
                                                                                  APPENDIX C-5


STATE :       MICHIGAN

        VETERANS ADMINISTRATION HOSPITAL BASE RATES FOR AMULANCE SERVICES

        (a)                 (b)                  (c)              (d)                 (e)
VA HOSPITAL              CONTRACT        EST. t TRIPS         AVERAGE BLS         TOTAL $ PAID
                     (yes or no)           FY 1985             BASE RATE           (ESTIMATE)
Allen Park               YES                    850            $ 49                 $ 41, 650
Ann Arbor                YES                    100                                       000
   inaw                  YES                    300                                       000
                        TOTAL                   250                                   59, 650
      WEIGHTED AVERAGE BASE RATE ((e) divided by (c)) = $47.


II.     MEDICARE ALLOWABLES, FSY 1985

              (a)                 (b)                   (c)                 (d)
              AREA          BLS BASE RATE              t TRI P             TOTAL $
                              PREVAILING                 PAID               ALLOWED

        Statewide             $ 93                     193, 241         $ 17, 971 413

                                        TOTAL          193, 241           17, 971, 413

AVEGE ALLOWED PER CLAIM I (d) divided by                  (c)) = $93.

AVEGE PAID PER CLAIM (80% of $ 93. 00) =                  $74.

POTENTIAL SAVINGS PER CLAIM IF MEDICARE PAID SAM RATE AS THE VETERANS
ADMINISTRATION ($74. 40 minus $47. 72) = $26. 68 or 35. 9%.
 POTENTIAL ANNAL SAVINGS ($26. 68 per trip x 193, 241 trips) =
 $5, 155, 670.
                                                                                    APPENDIX C-6


STATE:         PENNSYLVANIA

        VETERANS ADM"'      ISTRATION HOSPITAL BASE RATES FOR AMBULANCE SERVICES

        (a)	                 (b)                   (c)                (d)                 (e)
VA HOSPITAL              CONTRACT          EST. t TRIPS           AVERAGE BLS       TOTAL $ PAID
                         (yes or no)          FY 1985              BASE RATE         (ESTIMATE)
Pi ttsburgh                  YES                  100              $ 55                 $ 60, 500
Philadelphia                 YES                  400                                      81, 200
(No contracts in remaining areas of the State)


                           TOTAL                  500	                                    141, 700
    WEIGHTED AVERAGE BASE RATE              (( e) divided by        (c)) = $56.


II -
   MEDICARE ALLOWABLES, FSY 1985

               (a)                  (b)                     (c)                   (d)
               AREA          BLs BASE RATE                t TRIPS            TOTAL $
                               PREVAILING	                  PAID                ALLOWED
                                    120                       802               856, 240
                                    106                  188, 786           20, 011, 316
                                                          32, 714               453, 550
                                    135                       450                 950 750
                                          TOTAL          284, 752           30, 271, 856

AVEGE ALLOWED PER CLAIM ((d)                  divided by (c)) = $106.

AVEGE PAID PER CLAIM (80% of                 $106. 31) = $85.

POTENTIAL SAVINGS PER CLAIM IF MEDICARE PAID SAM RATE AS THE VETERANS
ADMINISTRATION ($85. 05 minus $56. 68) = $28. 37 or 33. 4%.
POTENTIAL ANNUAL SAVINGS ($28. 37 per trip x 284, 752 trips) =
$8, 078, 414
                                                                                              APPENDIX C-7


STATE:        MASSACHUSETTS

        VETERANS ADMINISTRATION HOSPITAL BASE RATES FOR AMULANCE SERVICES

        (a)                 (b)                        (c)                      (d)                 (e)
VA HOSPITAL              CONTRACT              EST. i TRIPS                  AVERAGE BLs      TOTAL $ PAID
                          es or no)              FY 1985                      BASE RATE        (ESTIMATE)
Jamaica Plains              YES                       725                                         $ 141, 450
West Roxbury                YES                       200                                            81, 600
Brockton                    YES                       800                       120                        000
                           TOTAL                      725                                           319, 050
      WEIGHTED AVERAGE BASE RATE ((e) divided by (c)) = $85.


II.     MEDICARE ALLOWABLE        5 ,   FSY 1985

               (a)                      (b)                          (c)                    (d)
              AREA          BLS BASE RATE                      i TRIPS                    TOTAL $
                              PREVAILING                         PAID                     ALLOWED
              Urban           $ 125                            177, 983                   $ 22, 247, 875
              Suburban             100                              631                         263 100
                                              TOTAL            230, 614                     27, 510, 975

AVEGE ALLOWED PER CLAIM r (d) divided                          by     (c))      = $119.

AVEGE PAID PER CLAIM (80% of $119. 29)                              = $95.

POTENTIAL SAVINGS PER CLAIM IF MEDICARE PAID SAM RATE AS THE VETERANS
ADMINISTRATION ($95. 43            minus $85. 65)            = $9. 78 or 10.

POTENTIAL ANNUAL SAVINGS ($9. 78 per trip x 230, 614 trips) = $2, 255, 405
                                                                                APPENDIX C-8


STATE:        FLORIDA

       VETERANS ADMINISTRATION HOSPITAL BASE RATES FOR AMULANCE SERVICES
        (a)                (b)                   (c)               (d)                 (e)
VA HOSPITAL             CONTRACT         EST. t TRIPS           AVERAGE BLS     TOTAL $ PAID
                                           FY 1985               BASE RATE       (ESTIMATE)
Bay pines                                       200                                    92, 400
Gainesville                                     000                                   140, 000
Lake Ci ty                                      300                                    17, 100
Miami                                           700                                    66, 500
Tampa                                           500                                   120, 000
                          TOTAL                 700                                   436, 000
      WEIGHTED AVERAGE BASE RATE ((e) divided by (c)) = $ 76.


II.     MEDICARE ALLOWABLES, FSY 1985

              (a)                 (b)                     (c)                  (d)
              AREA         BLS BASE RATE                t TRIPS             TOTAL $
                             PREVAILING                   PAID              ALLOWED
                                  70.                   16, 766               173, 620
                                  70.                   77, 953               456, 710
                                  82.                   42, 405               498, 413
                                  75.                       068                330 100
                                        TOTAL          168, 192          $ 12, 458, 843


AVEAGE ALLOWED PER CLAIM ((d) divided by (c)) = $ 74.
AVEGE PAID           PER CLAIM (80% of $ 74. 08) = $ 59.
Flor ida VA hospi tals do not have contracts for ambulance                      services.
Instead, the full amount billed by an ambulance company is paid from

VA medical administration funds.
 The VA paid an average BLS base rate of $17. 23 more per trip than

 Medicare. If   the VA had paid the same as Medicare, BLS base rate
 savings could have amounted to as much as $98, 211 during FY 1985.

                                                       -----


                                                                                      APPENDIX D

      COMPARISON OF MEDICARE AND VETERANS ADMINISTRATION BASE RATES
               EMPIRE BLUE SHIELD, APRIL 1984 - MACH 1985


       MEDICARE ALLOWABLES BASED ON REASONALE CHARGE METHODOLOGY

       TOTAL PAID       AVERAGE BLS             TOTAL $            TOTAL $ PAID        PAID PER
        SERVICES         BASE RATE              ALLOWED             (ESTIMATE)            CLAIM
        285 472                137.                   150 148      $ 31,   320, 118       109.


II.    MEDICARE ALLOWABLES BASED ON INHERENT REASONABLENESS


       TOTAL PAID       AVERAGE BLS              TOTAL $            TOTAL $ PAID         PAID PER
        SERVICES         BASE RATE               ALLOWED             (ESTIMATE)               CLAIM
        285 472                114.          $ 32, 736, 713                189 370             91.


I I I. VETERANS ADMINISTRATION HOSPITAL BASE RATES FOR AMULANCE SERVICES
      (a)                (b)                   (c)                 (d)                  (e)
VA HOSPITAL          CONTRACT         EST. t TRIPS           AVERAGE BLS         TOTAL $ PAID
                      es or no)             FY 1985           BASE RATE           (ESTIMATE)
Manhattan               YES                   000                $ 62.                $ 248, 000
Bronx                   YES                   600                  65.                    39, 000
Lon     Island          YES                   293                  73.                          579
                       TOTAL                  893                                        308, 579
WEIGHTED AVERAGE BASE RATE ((e) divided by (c)) = $63.



IV.     RATE COMPARISON
                                      MEDICARE                                     VETERANS
                           REAS. CHARGE    INHERENT REAS.                       ADMINI STRATION
        AVERAGE PAID

        PER CLAIM               $ 109. 71            $ 91.                            $ 63.


        SAVINGS OVER                                 $ 17.                            $ 46.

        REASONABLE                                    (16. 4%)                         (42. 5%)
        CHARGE METHOD.


        SAVINGS OVER                                                                  $ 28.

        INHERENT                                                                       (3l. 3%)
        REASONABLENESS
                                                                        APPENDIX E­

                           MEDICARE AND VETERANS ADMINISTRATION

                          MILEAGE , OXYGEN AND WAITING TIME RATES

                                STATE OF CALIFORNIA, FY 85



      VETERANS ADMINISTRATION

      Hos         i tal             Milea                              Wai tin         Time
                            Included In      Rate                        (per hour)
                             Base Rate      Per Mile

      San Diego                              $1.            $25              $ 90

      Long Beach             city limits


      Sepul veda
      West Los

          Angeles
      Loma Linda

      Fresno
      Palo AI to
      San Francisco                                                             100
      Martinez               10cal area




II.   MEDICARE

      Area                          Milea                              Wai tin         Time
                            Included In      Rate                        (per hour)
                             Base Rate      Per Mile

      Northern
           California                        40-5. 20*     $16. 00-    $48. 00-$70.
                                                           $20.

      Southern

           California                                      $11. 20­
   $22. 40-$48 


                                                           $23.
      *All figures are 80% of Medicare             allowable.
                                                                  APPENDIX E-2

                     MEDICARE AND VETERANS ADMINISTRATION
                    MILEAGE , OXYGEN AND WAITING TIME RATES
                              STATE OF TEXAS, FY 85



   VETERANS ADMINISTRATION


    Hos   i tal *       Milea                                     Wai tin   Time
                                                                    (per hour)


    San Antonio       $1. 25-$2.           $5. 00-$25.            up to $60.
    Marlin
    Kerrville
   Temple                                                             $10

    Houston                                                           $60
    Dallas
    Big Spr ing                                                       $30

    *Two hospi tals do not      have contracts   and are not i ncl uded.




II. MEDICARE	           Mileage                  Oxygen           Wai ting Time
                                                                   (per hour)


                     $0. 80-$2. 80*       $6. 40- $20.           $16. 00-$20.
    *All f igures are    80% of Medicare allowable.
                                                                APPENDIX F




               ALS AND BLS BASE RATE PREVAILINGS
                    BY CARRIER AREA, FY 84



carrier Area          ALS Prevailin         BLS Prevailin

Arkansas                   $102                    $65

Cali fornia                                 $ 87. 50-$115.
 Northern                  $275
 Southern                  $210             $ 70. 00-$113.

Connecticut           $142. 60-$146.        $ 87. 60- $   91.
Flor ida                   $ 90             $ 68. 00-$    75.

Hawai i               $130. 00-$234.        $107. 00-$208.

Illinois              $120. 00-$150.        $ 50. 00-$    96.
Indiana               $140. 00-$150.        $ 60. 00-$    85.
Michigan                   $140                    $97.

North Dakota               $180                    $95

                           $265             $ 40. 00-$180.
Ohio
South Dakota                $120                   $60

Washington                  $245                   $125
                                                   APPENDIX G



           ACTIVE INVSTIGATIONS OF AMBULANCE SUPPLIERS

                       (as of October 1986)




                                                   NUMBER OF
                                                    ACTIVE
NATURE OF ACTIVITY
                              INVSTIGATIONS

Transporting benef iciar ies absent   medical
necessi ty and overstating the medical need
of the beneficiary to obtain    payment.
Transporting beneficiaries to and from

non-covered locations and concealing the true

origin and destination of the trips to obtain

payment.
Claiming payment for services not provided,
e.g., actual trips, medical supplies.
Overstating the level of service provided,
  g., van service provided; BLS ambulance
service provided, ALS claimed.

Overstating actual miles traveled and
waiting time to obtain payment.

Misrepresenting the true 10cation of the

business to take advantage of higher

reimbursement rates at a fictitious address.


Submi tting claims for service in an area
other than the place of service to     obtain
higher payment.

Violating assignment    agreements.
Transporting mul tiple patients and submitting
claims for singular    trips.
Knowingly providing noncovered service and

bribing carrier employees to authorize

payment for the noncovered care.
